Highlights
Table of Contents




                    Delivery Unit
                    Optimization
                    Process
Findings
Recommendations




                    Audit Report
                    Report Number
                    DR-AR-14-007

                    August 25, 2014
Appendices




                                      Print
Highlights
Table of Contents




                    Highlights                           Background                                                           According to management, there may be valid business
                                                                                                                              reasons to approve a DUO consolidation with a projected
                                                         The U.S. Postal Service’s Delivery Unit Optimization (DUO)
                                                                                                                              financial loss; however, the Postal Service did not document
                                                         initiative began in December 2010 to increase operational
                                                                                                                              these reasons because the guidelines did not require it to do so.
                                                         efficiencies by consolidating delivery operations into centralized
                                                                                                                              As a result, management did not fully support a business case
                                                         facilities. Management issued revised DUO guidelines in
                                                                                                                              for implementing 41 of the DUO consolidations.
Findings




                                                         March 2013 as a result of a December 2012 Postal Service
                    The revised DUO guidelines were      Office of Inspector General (OIG) audit. From March to               Further, eight DUO proposals lacked sufficient support for
                                                         September 2013, management implemented 273 DUO                       $584,797 of savings reflected on the DUO worksheets and
                        not adequate for processing      consolidations.                                                      some DUO before and after cost studies were not performed
                       DUO proposals with projected                                                                           as required. These shortcomings were due to insufficient
                                                         Our objectives were to assess the adequacy of the revised
                                                                                                                              management oversight and management’s belief that they
                                   financial losses.     DUO guidelines and determine whether Postal Service areas
                                                                                                                              needed data from a longer time period to adequately assess
                                                         and districts complied with the guidelines.
Recommendations




                                                                                                                              the consolidation. We could not validate projected savings or
                                                                                                                              losses for the studies that were not performed. Consequently,
                                                         What the OIG Found                                                   we estimate questioned costs of over $906,000 because
                                                         The revised DUO guidelines were not adequate for processing          post-implementation studies were not performed.
                                                         DUO proposals with projected financial losses. Also,
                                                         management did not always comply with the guidelines.
                                                         Specifically, in fiscal year 2013, management approved
                                                         41 consolidations with projected financial losses of $321,550.
Appendices




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                     Print                                    1
Highlights
Table of Contents




                                                            Delivery Unit Optimization
                                                            (DUO) Consolidations
                                                            by regions
                                                            Roll over the regional map to
                                                            reveal the DUO consolidations
Findings




                                                            in each region.

                                                                                       Total
                                                            See Table 1 for a

                                                                                       DUOs
                                                            detailed break out
                                                            by district.

                                                                                       273
Recommendations




                                                         What the OIG Recommended
                                                         We recommended the vice president, Delivery and Post              to validate cost savings calculations, compliance with guidelines
                                                         Office Operations, update DUO guidelines to require a             to document the savings, and costs categories. We also
                                                         savings threshold for consolidations and justifications for DUO   recommended management ensure DUO coordinators perform
Appendices




                                                         proposals that do not reach the threshold and reinforce to the    required cost studies and revise the post-implementation cost
                                                         DUO coordinators that they provide justification and support on   analysis requirement to a single study conducted 1 year after
                                                         the DUO worksheet. In addition, require the approving authority   consolidation.


                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                  Print                                   2
Highlights
                    Transmittal Letter


                                                         August 25, 2014			
Table of Contents




                                                         MEMORANDUM FOR:	            EDWARD F. PHELAN, JR
                                                         				                        VICE PRESIDENT, DELIVERY AND
                                                         				                        POST OFFICE OPERATIONS

                                                                                         E-Signed by Robert Batta
                                                                                       VERIFY authenticity with e-Sign


                                                         				
                                                         FROM: 			 Robert J. Batta
                                                         				      Deputy Assistant Inspector General
                                                         				       for Mission Operations

                                                         SUBJECT: 			                Audit Report – Delivery Unit Optimization Process
Findings




                                                         				                        (Report Number DR-AR-14-007)

                                                         This report presents the results of our audit of the U.S. Postal Service’s Delivery Unit
                                                         Optimization Process (Project Number 13XG035DR000).

                                                         We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                         questions or need additional information, please contact Rita Oliver, director, Delivery
Recommendations




                                                         and Post Office Operations, or me at 703-248-2100.

                                                         Attachment

                                                         cc:	   Corporate Audit and Response Management
Appendices




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                               Print                3
Highlights
                    Table of Contents

                                                         Cover
                                                         Highlights.......................................................................................................1
                                                          Background.................................................................................................1
Table of Contents




                                                          What the OIG Found...................................................................................1
                                                          What the OIG Recommended.....................................................................2
                                                         Transmittal Letter...........................................................................................3
                                                         Findings.........................................................................................................5
                                                          Introduction.................................................................................................5
                                                          Conclusion..................................................................................................5
                                                          Delivery Unit Optimization Guideline Enhancements.................................5
                                                          Delivery Unit Optimization Guidelines Compliance.....................................6
                                                         Recommendations........................................................................................8
                                                          Management’s Comments..........................................................................8
Findings




                                                          Evaluation of Management’s Comments....................................................9
                                                         Appendices.................................................................................................. 11
                                                          Appendix A: Additional Information...........................................................12
                                                            Background ...........................................................................................12
                                                            Objectives, Scope, and Methodology.....................................................14
Recommendations




                                                            Prior Audit Coverage..............................................................................15
                                                          Appendix B: Negative Projected Annualized Savings...............................16
                                                          Appendix C: Management’s Comments...................................................18
                                                         Contact Information.....................................................................................21
Appendices




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                   Print                      4
Highlights
                    Findings                               Introduction
                                                           This report presents the results of our self-initiated audit of the U.S. Postal Service’s revised Delivery Unit Optimization (DUO)
                                                           Process (Project Number 13XG035DR000). Our objectives were to assess the adequacy of the revised DUO guidelines and
                                                           determine whether Postal Service areas and districts complied with them. See Appendix A for additional information about this
                                                           audit.

                                                           In December 2010, the Postal Service established limited guidelines for the DUO initiative, which was designed to increase
                     In fiscal year 2013, management       operational efficiencies by centralizing delivery operations within each postal district. Management revised the DUO guidelines
Table of Contents




                                                           in March 2013 based on recommendations from a December 2012 U.S. Postal Service Office of Inspector General (OIG) audit.1
                         approved 41 consolidations        From March 1 through September 30, 2013, the Postal Service implemented 273 DUO consolidations. See Table 1 for DUO
                      with projected financial losses      consolidations by districts.

                           of $321,550. According to       Conclusion
                         management, there may be          The revised DUO guidelines were not adequate for processing DUO proposals with projected financial losses. Also, management
                                                           did not always comply with the guidelines. Specifically, in fiscal year 2013, management approved 41 consolidations with projected
                           valid business reasons to       financial losses of $321,550. According to management, there may be valid business reasons to approve a DUO consolidation
                                                           with a projected financial loss; however, the Postal Service did not document these reasons because the guidelines did not require
                       approve a DUO consolidation
                                                           it to do so. As a result, management did not fully support a business case for implementing 41 of the DUO consolidations.
                      with a projected financial loss;
                                                           Further, eight DUO proposals lacked sufficient support for $584,797 of savings reflected on the DUO worksheets and some DUO
Findings




                     however, the Postal Service did       before and after cost studies were not performed as required. These shortcomings were due to insufficient management oversight
                                                           and management’s belief that they needed data from a longer time period to adequately assess the consolidation. We could not
                        not document these reasons         validate projected savings or losses for the studies that were not performed. Consequently, we estimate questioned costs of over
                      because the guidelines did not       $906,000 because post-implementation studies were not performed.

                       require it to do so. As a result,   Delivery Unit Optimization Guideline Enhancements
Recommendations




                           management did not fully        During March 1 through September 30, 2013, 41 of the 273 DUO consolidations had projected financial losses totaling more
                                                           than $321,000 (see Appendix B). Management stated there may be a number of reasons to approve a consolidation proposal
                         support a business case for       with a projected loss. For example, the loss may be minor and, therefore, the consolidation may be considered “a wash”2 or the
                                                           consolidation may result in fewer drop-off points3 for business mailers. While there may be valid business reasons for approving
                             implementing 41 of the        a DUO consolidation with a projected financial loss, the DUO guidelines did not specify a dollar value threshold or require
                               DUO consolidations.         justification for approving such proposals.
Appendices




                                                           1	 Delivery Unit Optimization Initiative (Report Number MS-AR-13-001, dated December 6, 2012).
                                                           2	 According to headquarters management a “wash” constitutes the DUO balancing out to $0 savings.
                                                           3	 Postal Service authorized shipper/mailer entry points.
                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                               Print                            5
Highlights                                               Delivery Unit Optimization Guidelines Compliance
                                                         We concluded that Postal Service areas and districts did not always comply with established DUO guidance.

                                                         DUO Worksheet Accuracy and Justification. Eight DUO worksheets4 had discrepancies that included overstatements of more than
                                                         $584,000 in savings and “Other Costs” entered incorrectly. Also, these costs were insufficiently justified on the DUO worksheets.

                                                         ■■ Greensboro District: one worksheet had two vacant positions counted as filled,5 resulting in an overstatement of salary-related
                                                            savings of $158,524.
Table of Contents




                                                         ■■ South Jersey District: one worksheet had a vacant position counted as filled, resulting in an overstatement of salary-related
                                                            savings of $73,639.

                                                         ■■ Greater South Carolina District: three worksheets had vacant positions counted as filled, resulting in an overstatement of
                                                            salary-related savings of $181,352.

                                                         ■■ Sierra-Coastal District: one worksheet had a vacant position counted as filled, resulting in an overstatement of salary-related
                                                            savings of $107,879.

                                                         ■■ Atlanta District: one worksheet had a vacant position counted as filled, resulting in an overstatement of salary-related savings
                                                            of $61,369.
Findings




                                                         ■■ Central Plains District: one worksheet reported $2,034 as a cost in the comments section, but described this amount as a
                                                            savings in the narrative.

                                                         These discrepancies occurred because Postal Service area and district management did not adequately review and approve DUO
                                                         consolidation worksheets. Headquarters management stated they intentionally left some positions vacant as a strategic decision
                                                         due to ongoing initiatives, with the intention of filling them at a later date. However, the data shows the positions had been vacant
                                                         for 1 year or longer.6 The guidance for reporting “Other Savings” and “Other Costs” requires that “manual input of respective data
Recommendations




                                                         must be explained in comments.”7 We believe that, with better oversight, these discrepancies were preventable.

                                                         We identified worksheets with salaries and benefits out of proportion with the number of current and proposed employees. We
                                                         interviewed district DUO coordinators for each site and determined that employees were “authorized” but not on the roll. We
                                                         determined the authorized on roll positions were counted as savings. We generated an On Roll and Paid Employee Statistics
                                                         (ORPES) report8 to determine if the position had been vacant for at least 1 year. We identified eight positions vacant for at least
                                                         1 year and considered including salaries and benefits for that position to be invalid for the purposes of calculating savings.
Appendices




                                                         4	 DUO worksheets for these locations showed positive savings based on open vacancies at these locations.
                                                         5	 Area management stated on the DUO worksheets they used headquarters Post Office Structure Plan (POStPlan) cost savings methodology because the DUO guidelines
                                                            did not specify the timeframe for using previously open/unfilled vacancies as part of the analysis.
                                                         6	 In testimony to the Postal Regulatory Commission on May 25, 2012, the Postal Service stated it now uses actual employee costs in economic analysis: historical data that
                                                            provides an average of employee costs for the past year for vacant positions.
                                                         7	 USPS DUO/Cost/Savings Input PowerPoint Manual, Change Suspension Discontinuance Center (CSDC), dated April 19, 2013.
                                                         8	 The report is generated by the Enterprise Data Warehouse system.
                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                                               Print                                               6
Highlights                                               Before and After Cost Studies. Some districts did not conduct the 3- and 6-month before or 3- and 6-month after cost study
                                                         analyses required by the DUO guidelines. The OIG surveyed all 67 districts and received 15 responses.9 Only four districts
                                                         indicated they conducted both 3- and 6-month before and after cost studies.10

                                                         We visited three of the surveyed districts11 and determined the Northern Virginia and Richmond districts did not perform either the
                                                         3- and 6-month before or the 3- and 6-month after cost study analyses. The South Jersey District performed a pre-implementation
                                                         cost study and indicated it plans to conduct a post-implementation cost study. Management believed they needed data from
                                                         a longer time period to adequately assess the success of the consolidation. A longer time period would ensure that the DUO
                                                         coordinator has more complete financial performance data. We found the post-implementation requirements contributed to the
Table of Contents




                                                         lack of data because districts did not have enough time to collect it. Because the Postal Service did not conduct after cost studies,
                                                         it cannot be certain it achieved projected annualized savings. During the course of the audit, some managers suggested doing a
                                                         single cost study 12 months after the DUO consolidation to provide a more accurate account of savings.
Findings
Recommendations
Appendices




                                                         9	 The OIG received 11 “no” responses and four “yes” responses to the survey submitted November 8, 2013.
                                                         10	 Postal Service memorandum, Delivery Unit Optimization, dated March 1, 2013.
                                                         11	 We visited three districts: Northern Virginia, Richmond, and South Jersey. These districts implemented 51 DUO consolidations, 17 of which did not have the required cost
                                                             study analysis.
                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                                                Print                                                   7
Highlights
                    Recommendations                      We recommend the vice president, Delivery and Post Office Operations:

                                                         1.	 Update Delivery Unit Optimization (DUO) guidance to include a savings threshold amount and require justification for DUO
                                                             proposals with projected losses.

                                                         2.	 Reinforce that Delivery Unit Optimization (DUO) coordinators provide justification and support in the comments section of the
                                                             DUO projected annualized savings worksheet.
                       We recommend management
                                                         3.	 Require that Delivery Unit Optimization approving authorities validate cost savings calculations.
Table of Contents




                           update DUO guidelines to
                      require a savings threshold for    4.	 Ensure Delivery Unit Optimization coordinators prepare before and after cost study analyses to validate costs, savings, and
                                                             efficiencies.
                    consolidations and justifications
                                                         5.	 Revise the post-implementation cost study analysis requirement to a single study conducted 1 year after the Delivery Unit
                       for DUO proposals that do not         Optimization consolidation.
                    reach the threshold and reinforce
                                                         Management’s Comments
                        to the DUO coordinators that     Management disagreed with the findings, recommendations, and monetary impact.
                       they provide justification and
                                                         Regarding our findings, management stated they do not consider the report to be accurate or reflective of actions taken.
                     support on the DUO worksheet.       Management asserted that the DUO worksheets were accurate and stated they held the vacant positions in reserve as a cost
Findings




                                                         avoidance measure and the work may have been performed by an employee paid a lower rate. Also, their analysis of the
                        In addition, it should require   41 reported DUO consolidations indicated projected losses of less than $2,000 per month, per site for all but one of the of the
                                                         consolidations. In addition, 38 of the consolidations with a projected loss were expected to yield additional operational savings
                           validation of cost savings
                                                         from proposed POStPlan initiatives.
                       calculations, compliance with
                                                         Management disagreed with recommendation 1, stating that DUO guidance includes a process for analysis, justification, and
                         guidelines to document the      management review and approval. Also, since savings are measured on economies to scale, a target savings threshold would not
Recommendations




                                                         be feasible.
                       savings, and cost categories.
                                                         Management disagreed with recommendation 2, stating that the CSDC application negates the recommendation and there is a
                                                         comment section in the projected annualized savings worksheet for recording additional comments.

                                                         Management disagreed with recommendation 3, stating that the process exists within the CSDC application which requires DUO
                                                         approving authorities to validate cost savings. The financial worksheet is a forecasting tool and should not be misconstrued as
                                                         containing the final calculations.

                                                         Management disagreed with recommendation 4, stating there is currently a process in place requiring coordinators prepare before
                                                         and after cost study analyses. In addition, the district tracks all costs and savings associated with relocation and provides senior
Appendices




                                                         management with a summary.




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                     Print                                   8
Highlights                                               Finally, management disagreed with recommendation 5, stating that, since DUO consolidations are performed throughout
                                                         the country with various implementation dates, it would not be practical to conduct a single study 1 year after a consolidation.
                                                         Additionally, full savings may not be realized within 1 year especially at sites as a result of a NODE12 study.

                                                         In addition, management disagreed with the monetary impact, stating that we did not take into account operational savings, but
                                                         only monetary savings.

                                                         Evaluation of Management’s Comments
Table of Contents




                                                         The OIG considers management’s comments unresponsive to the findings and recommendations. As such, we view the
                                                         recommendations as unresolved, but do not plan to pursue them through the audit resolution process.

                                                         Management’s general comments on the accuracy of the report are incorrect. We obtained the information in the report from
                                                         Postal Service publications and data systems, verified it with Postal Service field and Headquarters personnel, and discussed
                                                         it with management on several occasions. During these discussions management did express some concerns; however, when
                                                         asked for documentation to support their requested change, none was provided.

                                                         For all five recommendations management asserted they have a well-defined set of existing processes established in the DUO
                                                         guidance so do not need to implement any of the recommendations.

                                                         Regarding recommendation 1, management disagreed with updating DUO guidance to include a savings threshold amount and
Findings




                                                         require justification for DUO proposals with projected losses. Management acknowledged in their comments the approval of
                                                         DUO consolidations with a projected loss. Management is also correct that the DUO guidance include a process for the analysis,
                                                         justification, and management review and approval of DUO consolidations. However, we determined the DUO guidance does not
                                                         contain specific procedures for processing DUO proposals with projected losses. Also, our analysis of the 41 DUO consolidations
                                                         with projected losses determined the DUO worksheets did not contain an explanation of why a DUO consolidation with no
                                                         projected savings was approved. During our audit, management stated some DUO consolidation savings may be a “wash”
                                                         and there may be a valid business reason for approving a DUO consolidation with a projected loss, which we included in the
                                                         report. The recommendation for management to establish a savings threshold for a DUO projected dollar loss that is considered
Recommendations




                                                         acceptable or, a “wash”, for approval for a DUO proposal is a good business practice. In addition, including a clear explanation in
                                                         the comment section of the DUO worksheet justifying the business case for approving a DUO proposal with a projected loss will
                                                         enhance transparency.

                                                         Management stated that the POStPlan initiative yielded operational savings opportunities. The scope of our review was DUO
                                                         consolidation proposals; however, on several occasions during the audit, we discussed with management the potential impact
                                                         of POStPlan on DUO consolidation savings at offices where both initiatives occured simultaneously. During these meetings,
                                                         management stressed that POStPlan was a separate initiative and that savings from DUO and POStPlan should not be combined.
                                                         In response to management’s initial comments on POStPlan and the stated objective of the audit, we agreed to only review DUO
                                                         proposals during the audit. However, if management now opts to include POStPlan savings in their DUO assessment they should
                                                         identify those savings in planning documents to provide a complete business case for performing a DUO consolidation. In addition,
Appendices




                                                         combining the two initiatives could facilitate the preparation of the consolidation proposals, reduce the potential for double counting
                                                         savings, and enhance transparency.

                                                         12	 The NODE study analysis allows the Postal Service to consolidate delivery operations to yield operational and lease savings. 2012 Annual Report to Congress &
                                                             Comprehensive Statement.
                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                                              Print                                          9
Highlights                                               Regarding recommendation 2, management disagreed with reinforcing that DUO coordinators need to provide justification and
                                                         support in the comments section of the DUO worksheet. While management stated they have a well-defined process, the report
                                                         identified examples of DUO worksheets with discrepancies that included savings overstatements of more than $584,000 and other
                                                         costs entered incorrectly. In addition, during our audit management stated that they intentionally left some employee positions
                                                         vacant on the worksheets as a strategic decision due to ongoing initiatives, with the intention of filling them at a later date.
                                                         However, our analysis of the data showed the positions had been vacant for 1 year or longer. There can be no savings if there
                                                         is no expense. The Postal Service has acknowledged this to the Postal Regulatory Commission when reporting their POStPlan
                                                         savings calculations, but was inconsistent in that approach when reporting DUO savings. The DUO guidance for reporting other
                                                         savings and other costs requires that manual input of data be explained in the comments section; therefore, with better oversight,
Table of Contents




                                                         discrepancies like these could be prevented.

                                                         Regarding recommendation 3, management disagreed with requiring approving authorities to validate cost savings calculations.
                                                         They stated that the financial worksheet is just a forecasting tool and should not be misconstrued as containing the final
                                                         calculations. While the financial worksheets may be a forecasting tool, management uses them in the DUO consolidation
                                                         approval process. Consequently, DUO worksheets should be as complete and accurate as possible and approvals should include
                                                         supporting documentation in addition to a “sign off”.

                                                         Regarding recommendation 4, management disagreed with ensuring that DUO coordinators prepare before and after cost studies
                                                         to validate costs and savings and to increase operational efficiencies by consolidating delivery operations into centralized facilities.
                                                         Despite the requirement and reminders by headquarters management to perform the cost studies, during our audit we found
                                                         that three of the districts we surveyed were not conducting them. Some managers stated the 3- and 6-month post-consolidation
Findings




                                                         reviews do not provide enough time to adequately assess the success of the consolidation. They suggested doing a single cost
                                                         study for each DUO consolidation after 12 months to provide a more accurate account of savings. Because the Postal Service did
                                                         not conduct these cost studies, it cannot be certain it achieved projected annualized savings.

                                                         Regarding recommendation 5, management disagreed with revising guidelines to conduct post-implementation cost study
                                                         analyses 1 year after the DUO consolidation instead of 3 and 6 months after, as currently required. Management responded
                                                         that since DUO consolidations are performed throughout the country with various implementation dates, it would not be practical
Recommendations




                                                         to conduct a single study 1 year after the consolidation. Management seems to have misinterpreted the recommendation even
                                                         though we discussed it with them at the exit briefing and during other meetings throughout the audit. Revising DUO guidance to
                                                         require one cost study for each DUO proposal 1 year after a DUO consolidation would be less labor-intensive and may provide a
                                                         more accurate account of savings.

                                                         Regarding the monetary impact, we based our saving calculations on a review of DUO consolidation worksheets from the
                                                         Postal Service’s CSDC. As stated in the report, we based the savings on 41 consolidations approved at a loss without justification
                                                         and discrepancies noted in the calculations on eight DUO worksheets. We discussed the monetary impact with management and
                                                         requested documentation that would support a different result; however, they did not provide any supporting documentation to
                                                         dispute the monetary savings identified.
Appendices




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                      Print                                   10
Highlights
                    Appendices
                                                          Appendix A: Additional Information...........................................................12
                                                           Background ...........................................................................................12
                                                           Objectives, Scope, and Methodology.....................................................14
                          Click on the appendix title      Prior Audit Coverage..............................................................................15
                                                          Appendix B: Negative Projected Annualized Savings...............................16
Table of Contents




                        to the right to navigate to the
                                                          Appendix C: Management’s Comments...................................................18
                                   section content.
Findings
Recommendations
Appendices




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                             Print                    11
Highlights          Appendix A:                          Background
                    Additional Information               Management has taken positive steps by implementing numerous initiatives to close, consolidate, and reduce customer service
                                                         operations between FYs 2010 and 2013 (see Figure 1).

                                                         Figure 1: Postal Service Delivery and Retail Initiatives
                                                          December 2010                      July 2011           December 2011                    May 2012                October 2012                 March 2013
                                                              Postal Service               Postal Service             Postal Service              Moratorium                  Postal Service              Revised
                                                               Establishes                   Announces                 Announces                      on                     Announces Post             Delivery Unit
Table of Contents




                                                               Delivery Unit               Retail Access              Moratorium on              Closures Ends               Office Structure           Optimization
                                                               Optimization                 Optimization             Facility Closures                                       Plan (POStPlan)          Guidelines Issued
                                                                 Initiative               Initiative (RAOI)
                                                         Source: OIG analysis.


                                                         In December 2010, the Postal Service established guidelines for the DUO initiative, which was designed to increase operational
                                                         efficiencies by moving delivery operations out of Post Office retail facilities into centralized facilities within a district. The DUO
                                                         initiative often resulted in a change at the post office’s management level.13 Management revised the DUO guidelines14 for field
                                                         implementation in March 2013 based on a recommendation from an earlier OIG audit.15

                                                         The revised guidelines provide additional information for determining costs and savings resulting from DUO consolidations.
                                                         Specifically, the guidelines require management to track relevant operating costs, workhours, and mail volumes. The Postal
Findings




                                                         Service uses this information to conduct cost studies and audits and to prepare and submit compliance reports, as required.
                                                         Further, the guidelines require the Postal Service to conduct 3- and 6-month cost studies before and after implementation.16 From
                                                         March 1 through September 30, 2013, the Postal Service implemented 273 DUO consolidations. See Table 1.
Recommendations
Appendices




                                                         13	 Management levels are determined by the span of control for front-line supervisors and managers based on the number of employees for an area.
                                                         14	 The revised DUO guidelines do not address claiming POStPlan postmaster savings in DUO consolidations.
                                                         15	 Delivery Unit Optimization Initiative (Report Number MS-AR-13-001, dated December 6, 2012).
                                                         16	 Postal Service memorandum, Delivery Unit Optimization, dated March 1, 2013.
                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                                             Print                                        12
Highlights                                               Table 1: DUO Consolidations

                                                                                   Number of
                                                         District                  Consolidations
                                                         Mid-America               52
                                                         Central Plains            44
                                                         Mid-Carolinas             28
                                                         South Jersey              24
Table of Contents




                                                         Atlanta                   21
                                                         Greensboro                20
                                                         Cincinnati                18
                                                         Kentuckiana               11
                                                         Northern Virginia         6
                                                         Dakotas                   6
                                                         Richmond                  5
                                                         Sierra-Coastal            4
                                                         Seattle                   5
                                                         Greater SC                3
                                                         Central IL                3
                                                         Northern NJ               3
Findings




                                                         Sacramento                2
                                                         Mississippi               2
                                                         Appalachian               2
                                                         Western NY                2
                                                         Greater Indiana           2
                                                         Honolulu                  2
                                                         Western PA                1
Recommendations




                                                         Detroit                   1
                                                         Bay-Valley                1
                                                         Rio Grande                1
                                                         Capital                   1
                                                         Greater MI                1
                                                         Lakeland                  1
                                                         Santa Ana                 1
                                                         Total                     273
                                                         Source: OIG analysis based on data from CSDC.
Appendices




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                         Print   13
Highlights                                               Objectives, Scope, and Methodology
                                                         Our audit objectives were to assess the adequacy of the revised DUO guidelines and determine whether Postal Service areas and
                                                         districts complied with them. Specifically we:

                                                         ■■ Obtained, reviewed, and analyzed cost savings worksheets for completed DUO consolidations conducted from March 1
                                                            through September 30, 2013.

                                                         ■■ Reviewed changes to the revised DUO guidance, including financial performance report line items and before and after cost
Table of Contents




                                                            study analysis requirements.

                                                         ■■ Reviewed 273 projected annualized savings DUO consolidation worksheets, visited three district offices, and conducted
                                                            interviews related to 51 consolidations that occurred from March 1 to September 30, 2013.

                                                         ■■ Surveyed 67 district coordinators and finance managers to obtain information on before and after cost study analysis.

                                                         ■■ Interviewed district DUO coordinators regarding the DUO calculations worksheets.

                                                         ■■ Analyzed cost savings on the DUO projected annualized cost savings worksheets to determine whether positions counted as
                                                            filled were vacant.

                                                         ■■ Reviewed the POStPlan methodology included on DUO worksheets to determine how management claimed POStPlan
Findings




                                                            savings17 in the consolidations.18

                                                         ■■ Reviewed Automated Postal Service (PS) Form 150,19 Postmaster Workload Information, to determine office levels and
                                                            vacancy status.

                                                         ■■ Analyzed ORPES report data for the employee complement for the same period last year.
Recommendations




                                                         We conducted this performance audit from May 2013 through August 2014, in accordance with generally accepted government
                                                         auditing standards and included such tests of internal controls as we considered necessary under the circumstances. Those
                                                         standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
                                                         our findings and conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for
                                                         our findings and conclusions based on our audit objectives. We discussed our observations and conclusions with management on
                                                         June 19, 2014, and included their comments where appropriate.

                                                         We assessed the reliability of the DUO data from the CSDC20 by accessing the systems used to retrieve and analyze various data
                                                         elements and interviewing personnel knowledgeable about the data in the system. We determined that the data were sufficiently
                                                         reliable for this report.
Appendices




                                                         17	 In January 2014, the OIG met with Postal Service Headquarters management and officials stated that DUO and POStPlan were two separate initiatives and combined
                                                           savings from these initiatives could not be used in either cost savings analysis.
                                                         18	 In January 2014, management informed the OIG that POStPlan savings were not part of the DUO consolidation savings calculations.
                                                         19	 We retrieved automated PS Form 150 data from the Postal Service Operations Complement Management system.
                                                         20	 An interactive website that allows districts and areas to view material related to suspensions or discontinuances of post offices and enter data to make those changes.
                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                                                  Print                                                14
Highlights                                               Prior Audit Coverage
                                                         The OIG report, Delivery Unit Optimization Initiative (Report Number MS-AR-13-001, dated December 6, 2012) determined
                                                         that, although management generally complied with DUO guidelines, the guidelines were limited and did not provide district
                                                         management with a well-defined methodology to project and validate savings and efficiencies. Thus, local managers developed
                                                         their own methodologies to project and validate savings, which led to inconsistent consolidation determinations. Also, management
                                                         did not always perform and document post-consolidation reviews. As a result, management has not effectively tracked the
                                                         results of the DUO initiative and we could not determine whether the 1,500 consolidations reduced costs or improved operational
                                                         efficiencies in delivery units. However, we judgmentally selected five sites for detailed review and found mixed results. Three of
Table of Contents




                                                         the five sites had reduced costs after consolidation, while two had increased costs. Furthermore, none of the five sites showed
                                                         improved efficiencies 6 months after consolidation. Management did not agree with our recommendations.
Findings
Recommendations
Appendices




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                  Print                                 15
Highlights          Appendix B:                          We identified 4121 DUO consolidations that management approved and implemented with projected losses totaling $321,550.
                                                         During discussions with headquarters management the OIG was informed that although these consolidations were losses, there
                    Negative Projected
                                                         were other decision making variables involved with the consolidations such as operational efficiencies and local management
                    Annualized Savings                   knowledge.

                                                                                                              Total Projected
                                                         District                  Post Office                Loss
                                                         Central IL                Lockport Carriers          ($86,551)
                                                         Central IL                Powersville                ($22,852)
Table of Contents




                                                         Mid-America               Chilhowee                  ($22,263)
                                                         Mid-America               Easton                     ($19,897)
                                                         Mid-America               Lesterville                ($17,570)
                                                         Mid-America               Ridgeway                   ($14,937)
                                                         Mid-America               Falcon                     ($14,698)
                                                         Mid-America               Skidmore                   ($14,210)
                                                         Mid-America               Effingham                  ($13,510)
                                                         Mid-America               White Cloud                ($11,511)
                                                         Mid-America               Colony                     ($10,812)
                                                         Mid-America               Lancaster                  ($9,691)
                                                         Mid-America               Mendon                     ($6,488)
Findings




                                                         Atlanta                   Molena                     ($6,426)
                                                         Mid-America               Collins                    ($4,694)
                                                         Mid-America               Eagleville                 ($4,320)
                                                         Mid-America               Creighton                  ($3,664)
                                                         Cincinnati                New Straitsville           ($3,469)
                                                         Mississippi               Ruth                       ($3,169)
                                                         Detroit                   Decker                     ($2,809)
Recommendations




                                                         Mid-America               Des Arc                    ($2,736)
                                                         Appalachian               Keeling                    ($2,657)
                                                         Atlanta                   Good Hope                  ($2,386)
                                                         Cincinnati                Radnor                     ($2,242)
Appendices




                                                         21	 According to headquarters management, two of the DUO consolidations did not have a DUO and POStPlan initiative occurring at the same time in order to include
                                                             projected POStPlan savings to prevent a loss.
                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                                                             Print                                           16
                                                                                                    Total Projected
Highlights
                                                         District                  Post Office      Loss
                                                         Mid-America               Broseley         ($1,900)
                                                         Mid-America               Winchester       ($1,862)
                                                         NOVA                      Brandy Station   ($1,604)
                                                         Atlanta                   Waco             ($1,581)
                                                         Mid-America               King City        ($1,561)
                                                         Cincinnati                Lewisville       ($1,392)
Table of Contents




                                                         Mid-America               Denton           ($1,362)
                                                         Mid-America               Blairstown       ($1,350)
                                                         Mid-America               Fordland         ($1,212)
                                                         Cincinnati                Patriot          ($1,056)
                                                         Western NY                Lawtons          ($1,014)
                                                         Mid-America               Arcadia          ($782)
                                                         Mid-America               Montreal         ($752)
                                                         Mississippi               Carson           ($306)
                                                         Mid-America               Fisk             ($180)
                                                                                   Anaheim Canyon
                                                         Santa Ana                                  ($41)
                                                                                   Station
                                                         Mid-America               Fremont          ($33)
Findings




                                                         Total                     41               ($321,550)
                                                         Source: CSDC database as of May 2013.
Recommendations
Appendices




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                      Print   17
Highlights          Appendix C:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                         Print   18
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                         Print   19
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                         Print   20
Highlights
Table of Contents
Findings




                                                            Contact us via our Hotline and FOIA forms, follow us on social
                                                         networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                or abuse. Stay informed.
Recommendations




                                                                               1735 North Lynn Street
                                                                              Arlington, VA 22209-2020
                                                                                    (703) 248-2100
Appendices




                    Delivery Unit Optimization Process
                    Report Number DR-AR-14-007
                                                                                                                                  Print   21
